No. 19-

IN THE

'upreme Court of tbe En iteb *tate55
CHARLES FARRAR,
Petitioner,
v.
DEAN WILLIAMS, EXECUTIVE DIRECTOR,
COLORADO DEPARTMENT OF CORRECTIONS,
PHIL WEISER, ATTORNEY GENERAL OF THE
STATE OF COLORADO, AND JEFF LONG,WARDEN,
STERLING CORRECTIONAL FACILITY,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Tenth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,992 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 27, 2020.

Cohn Casey Mogan
Wilson-Epes Printing Co., Inc.

